Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




 REVIEW OF MEDICARE PART D
PRESCRIPTION DRUG EVENT DATA
  FOR SCHEDULE II DRUGS AT
 HUMANA INSURANCE COMPANY




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Lori A. Ahlstrand
                                               Regional Inspector General

                                                      October 2012
                                                      A-09-12-02031
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003
amended Title XVIII of the Social Security Act (the Act) by establishing the Medicare Part D
prescription drug program. Under Part D, which began January 1, 2006, individuals entitled to
benefits under Part A or enrolled in Part B may obtain drug coverage.

The Centers for Medicare & Medicaid Services (CMS), which administers the Part D program,
contracts with private entities called Part D sponsors that act as payers and insurers for
prescription drug benefits. A Part D sponsor may contract with a third-party administrator to
manage or administer the prescription drug benefit on the sponsor’s behalf. Pursuant to 42 CFR
§ 423.505(i), the sponsor maintains ultimate responsibility for complying with its contract with
CMS, which includes compliance with all Federal laws, regulations, and guidance.

Pursuant to sections 1860D-15(c)(1)(C) and (d)(2) of the Act and 42 CFR § 423.322, sponsors
must submit the information necessary for CMS to carry out Part D payment provisions and
program integrity activities. For every prescription filled, the Part D sponsor or its third-party
administrator prepares a Prescription Drug Event (PDE) record and submits it to CMS. Certain
fields in the PDE record are completed using information provided by the pharmacy responsible
for filling the prescriptions. The PDE record, which is a summary record of individual drug
claim transactions at the pharmacy, enables CMS to make payment to the sponsor and otherwise
administer the Part D benefit. Pursuant to 42 CFR § 423.505(k), the sponsor must provide
certification as to the accuracy, completeness, and truthfulness of the claims data submitted for
payment purposes.

The Controlled Substances Act established five schedules based on the medical use acceptance
and the potential for abuse of the substance or drug. Schedule II drugs have a high potential for
abuse, have an accepted medical use (with severe restrictions), and may cause severe
psychological or physical dependence if abused. Pursuant to 21 CFR § 1306.12(a), Schedule II
prescription drugs may not be refilled. However, 21 CFR § 1306.13(b) provides that Schedule II
drugs for patients residing in a long-term-care facility and for the terminally ill may be partially
filled as long as the total quantity dispensed does not exceed the total quantity prescribed. Under
this provision, Schedule II prescriptions for these patients are valid for a period not to exceed
60 days from the issue date. In addition, pursuant to 21 CFR § 1306.11, Schedule II drugs may
not be dispensed without a practitioner’s written prescription.

Humana Insurance Company (Humana) contracted with CMS as a Part D sponsor to provide
prescription drug benefits to eligible Part D beneficiaries. Humana provided prescription drug
coverage to almost 500,000 beneficiaries and submitted to CMS over 4.1 million PDE records
for Schedule II drugs for dates of service from January 1, 2008, through June 30, 2010.




                                                 i
OBJECTIVE

Our objective was to determine whether Humana had adequate controls to (1) prevent refills and
unallowable partial fills of Schedule II drugs and (2) ensure the accuracy of certain fields in the
PDE records submitted for Schedule II drugs.

SUMMARY OF FINDINGS

Humana did not have adequate controls to (1) prevent unallowable partial fills of Schedule II
drugs and (2) ensure the accuracy of certain fields in the PDE records submitted for Schedule II
drugs as required by Federal regulations. Humana did not have specific controls to prevent
refills of Schedule II drugs; however, the pharmacies that we visited either did not allow refills
or had edits to prevent refills of those drugs.

Of 53 judgmentally selected PDE records, 16 records represented unallowable partial fills.
(There were no refills.) In addition, of 64 judgmentally selected PDE records (which included
the 53 records reviewed for refills and partial fills), 29 records contained inaccurate data in
certain fields when compared with the supporting documentation at the pharmacies. An
additional two PDE records were missing pharmacy documentation, which prevented us from
determining the accuracy of the data in the records.

The claims processing system’s edits were not adequate to identify unallowable partial fills to
prevent submission of PDE records related to those prescriptions nor did it have edits to ensure
the accuracy of certain fields in the PDE records. In addition, during the audit period, Humana
did not provide to pharmacies any guidance clarifying Federal requirements related to refills and
partial fills of Schedule II drugs or adequate guidance regarding the submission of accurate claim
information for Schedule II drugs.

RECOMMENDATIONS

We recommend that Humana:

   •   strengthen its controls to (1) prevent unallowable partial fills of Schedule II drugs and
       (2) ensure the accuracy of submitted PDE records and

   •   issue guidance to its pharmacies clarifying Federal requirements related to (1) refills and
       partial fills of Schedule II drugs and (2) submission of accurate claim information for
       Schedule II drugs.

AUDITEE COMMENTS

In written comments on our draft report, Humana concurred with part of our first
recommendation (that it strengthen its controls to prevent unallowable partial fills of Schedule II
drugs) and concurred with our second recommendation. Humana also provided information on
actions that it had taken or planned to take to address these recommendations. Although
Humana did not explicitly concur with part of our first recommendation (that it strengthen its
controls to ensure the accuracy of submitted PDE records), Humana stated that it would enhance

                                                 ii
its pharmacy audit process to include a review of all PDE data elements that are based upon the
pharmacy’s submitted claim. Humana’s comments are included in their entirety as the
Appendix.




                                               iii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND ......................................................................................................1
              Medicare Part D .............................................................................................1
              Prescription Drug Event Data ........................................................................1
              Controlled Substances ....................................................................................1
              Humana Insurance Company, Argus Health Systems, and
                Humana Pharmacy Solutions ......................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................3
               Objective ........................................................................................................3
               Scope .............................................................................................................3
               Methodology ..................................................................................................3

FINDINGS AND RECOMMENDATIONS ......................................................................4

          FEDERAL REQUIREMENTS ..................................................................................4
               Federal Regulations for Schedule II Drugs ....................................................4
               Federal Regulations and Guidance for Sponsors ..........................................5

          UNALLOWABLE PARTIAL FILLS .......................................................................5

          INACCURATE PRESCRIPTION DRUG EVENT DATA ......................................6
               Inaccurate Data ..............................................................................................6
               Missing Documentation .................................................................................6

          INADEQUATE CONTROLS ...................................................................................6

          CONCLUSION ..........................................................................................................7

          RECOMMENDATIONS ..........................................................................................7

          AUDITEE COMMENTS ..........................................................................................7

APPENDIX

          AUDITEE COMMENTS




                                                                    iv
                                       INTRODUCTION

BACKGROUND

Medicare Part D

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003
amended Title XVIII of the Social Security Act (the Act) by establishing the Medicare Part D
prescription drug program. Under Part D, which began January 1, 2006, individuals entitled to
benefits under Part A or enrolled in Part B may obtain drug coverage.

The Centers for Medicare & Medicaid Services (CMS), which administers the Part D program,
contracts with private entities called Part D sponsors that act as payers and insurers for
prescription drug benefits. Sponsors may offer prescription drug benefits through a standalone
prescription drug plan or as part of a managed care plan, known as a Medicare Advantage
Prescription Drug Plan.

A Part D sponsor may contract with a pharmacy benefits manager (PBM) or third-party
administrator to manage or administer the prescription drug benefit on the sponsor’s behalf.
PBM or third-party administrator responsibilities vary, but include services such as processing
and paying prescription drug claims, contracting with pharmacies, and negotiating rebates with
drug manufacturers. Pursuant to 42 CFR § 423.505(i), the sponsor maintains ultimate
responsibility for complying with its contracts with CMS, which includes compliance with all
Federal laws, regulations, and guidance.

Prescription Drug Event Data

Pursuant to sections 1860D-15(c)(1)(C) and (d)(2) of the Act and 42 CFR § 423.322, sponsors
must submit the information necessary for CMS to carry out Part D payment provisions and
program integrity activities. For every prescription filled, the Part D sponsor or its third-party
administrator prepares a Prescription Drug Event (PDE) record and submits it to CMS. The PDE
record, which is a summary record of individual drug claim transactions at the pharmacy, enables
CMS to make payment to the sponsor and otherwise administer the Part D benefit. Pursuant to
42 CFR § 423.505(k), the sponsor must provide certification as to the accuracy, completeness,
and truthfulness of the claims data submitted for payment purposes.
A Part D sponsor or its third-party administrator completes certain fields in the PDE record using
information provided by the pharmacy responsible for filling the prescription. A PDE record
contains fields that identify (1) the sponsor, beneficiary, physician, pharmacy, drug, prescription
reference number, and fill number; (2) the dates that the prescription was filled and the PDE
record was processed; and (3) the prescription drug cost and other payment information.

Controlled Substances

The Controlled Substances Act (CSA), 21 U.S.C. §§ 801–971, established five schedules based
on the medical use acceptance and the potential for abuse of the substance or drug. Schedule I,



                                                1
which includes drugs or substances that have no currently accepted medical use and a high
potential for abuse, is the most restrictive, and Schedule V is the least restrictive.

Schedule II drugs have a high potential for abuse, have an accepted medical use in treatment in
the United States or an accepted medical use with severe restrictions, and may cause severe
psychological or physical dependence if abused (21 U.S.C. § 812(b)(2)). Except in emergency
situations or when dispensed directly by a practitioner other than a pharmacist to the ultimate
user, Schedule II drugs may not be dispensed without a practitioner’s written prescription
(21 CFR § 1306.11). Schedule II drugs include drugs such as oxycodone and morphine.

Pursuant to 21 CFR § 1306.12(a), Schedule II prescription drugs may not be refilled. However,
21 CFR § 1306.13(b) provides that Schedule II drugs for patients residing in a long-term-care
facility and for the terminally ill may be partially filled as long as the total quantity dispensed
does not exceed the total quantity prescribed. 1 Under this provision, Schedule II prescriptions
for these patients are valid for a period not to exceed 60 days from the issue date.

Humana Insurance Company, Argus Health Systems, and Humana Pharmacy Solutions

Humana Insurance Company (Humana) contracted with CMS as a Part D sponsor to provide
prescription drug benefits to eligible Part D beneficiaries. Humana provided prescription drug
coverage to almost 500,000 beneficiaries and submitted to CMS over 4.1 million PDE records
for Schedule II drugs for dates of service from January 1, 2008, through June 30, 2010. For
these PDE records, pharmacies were paid approximately $438 million. 2

Humana contracted with Argus Health Systems, Inc. (Argus), a third-party administrator, to
provide claims processing services for Humana’s Medicare Prescription Drug Benefit Program
beginning March 2005. These services included claims adjudication, as well as creation of PDE
records. Argus processed prescription claims from pharmacies for each drug dispensing event.
Argus used its claims software to process prescription claims at the point of sale, which included
implementing a series of edits and calculating certain data elements. Argus used these data
elements, as well as other Part D data, to create the PDE records and transmit them to Humana.
Humana submitted the PDE records to CMS monthly. Argus also performed audits of the data
received from pharmacies. Humana oversaw Argus’s claims processing services.

Humana Pharmacy Solutions (HPS) serves as the PBM for Humana’s Medicare Part D business.
HPS provides a network of pharmacies and routinely performs pharmacy audits.




1
  The CSA has an exception to the written prescription requirement for Schedule II drug prescriptions written for
residents of long-term-care facilities. A prescription received by fax may serve as the original prescription.
2
  The amount paid to the pharmacies is on behalf of the sponsor, beneficiaries, and third parties. The $438 million
includes the amounts paid for original submissions of PDE records as well as any subsequent adjustments.


                                                          2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Humana had adequate controls to (1) prevent refills and
unallowable partial fills of Schedule II drugs and (2) ensure the accuracy of certain fields in the
PDE records submitted for Schedule II drugs.

Scope

We limited our review to 3,558,714 PDE records for dates of service from January 1, 2008,
through June 30, 2010, representing $367,730,117 paid for Schedule II drugs under Humana’s
one standalone prescription drug plan. We excluded from our review PDE records that were
(1) for noncovered Part D drugs under the prescription drug plan, (2) deleted, (3) plan-to-plan
reconciliations, (4) subsequently adjusted, or (5) submitted in a nonstandard format.

We limited our review of internal controls to gaining an understanding of how Humana
maintained and monitored PDE records for Schedule II drugs and oversaw pharmacies’ claiming
of these drugs. We did not review the completeness of the PDE records; we limited our review
to the fields in the PDE records that contained data provided by the pharmacies responsible for
filling the prescriptions.

We conducted our audit from February to June 2012 and performed fieldwork at selected
pharmacies.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    interviewed CMS officials about the Federal requirements related to Schedule II drugs;

   •    reviewed Humana’s contract with CMS regarding its roles and responsibilities as a Part D
        sponsor;

   •    reviewed Humana’s contract with Argus regarding processing of pharmacy claims;

   •    interviewed Humana officials regarding their monitoring and oversight of PDE data;

   •    obtained Humana’s PDE records for Schedule II drugs for dates of service from
        January 1, 2008, through June 30, 2010 (processed by CMS through November 2011);

   •    analyzed the PDE records by beneficiary, prescription reference number, and fill number
        to determine that 112,815 PDE records represented potential refills and/or potential
        unallowable partial fills;


                                                 3
   •   selected a judgmental sample of 53 PDE records and reviewed the supporting
       documentation at the pharmacies that submitted those claims to identify refills and
       unallowable partial fills;

   •   selected a judgmental sample of 64 PDE records (which included the 53 PDE records
       reviewed for refills and partial fills) and reviewed the supporting documentation at the
       pharmacies that submitted those claims to determine the accuracy of certain fields in the
       PDE records; and

   •   shared the results of our audit with Humana officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Humana did not have adequate controls to (1) prevent unallowable partial fills of Schedule II
drugs and (2) ensure the accuracy of certain fields in the PDE records submitted for Schedule II
drugs as required by Federal regulations. Humana did not have specific controls to prevent
refills of Schedule II drugs; however, the pharmacies that we visited either did not allow refills
or had edits to prevent refills of those drugs.

Of 53 judgmentally selected PDE records, 16 records represented unallowable partial fills.
(There were no refills.) In addition, of 64 judgmentally selected PDE records (which included
the 53 records reviewed for refills and partial fills), 29 records contained inaccurate data in
certain fields when compared with the supporting documentation at the pharmacies. An
additional two PDE records were missing pharmacy documentation, which prevented us from
determining the accuracy of the data in the records.

The claims processing system’s edits were not adequate to identify unallowable partial fills to
prevent submission of PDE records related to those prescriptions nor did it have edits to ensure
the accuracy of certain fields in the PDE records. In addition, during the audit period, Humana
did not provide to pharmacies any guidance clarifying Federal requirements related to refills and
partial fills of Schedule II drugs or adequate guidance regarding the submission of accurate claim
information for Schedule II drugs.

FEDERAL REQUIREMENTS

Federal Regulations for Schedule II Drugs

Pursuant to Federal regulations (21 CFR § 1306.12(a)), Schedule II prescription drugs may not
be refilled. A separate prescription is required if a physician wishes to authorize continuation of
a patient’s use of a Schedule II drug beyond the amount specified on the first prescription.


                                                 4
However, Federal regulations (21 CFR § 1306.13(b)) allow for a prescription for a Schedule II
drug written for a patient in a long-term-care facility or for a patient with a medical diagnosis
documenting a terminal illness to be filled in partial quantities to include individual dosage units.
Under this provision, a Schedule II drug may be partially filled as long as the total quantity
dispensed does not exceed the total quantity prescribed. The prescription is valid for a period not
to exceed 60 days from the issue date. 3

Pursuant to 21 CFR § 1306.11, except in emergency situations or when dispensed directly by a
practitioner other than a pharmacist to the ultimate user, Schedule II drugs may not be dispensed
without a practitioner’s written prescription.

Federal Regulations and Guidance for Sponsors

Pursuant to 42 CFR § 423.505(d), the sponsor agrees to maintain, for 10 years, records and
documents that are sufficient to accommodate periodic auditing of data and to enable inspection
of the quality, appropriateness, and timeliness of services performed under the contract with
CMS. In addition, pursuant to 42 CFR § 423.505(k), the sponsor must provide certification as to
the accuracy, completeness, and truthfulness of the claims data submitted. For every individual
drug claim transaction at the pharmacy, the Part D sponsor or its third-party administrator
prepares a PDE record.

Notwithstanding any relationship that the sponsor may have with related entities, contractors, or
subcontractors, the sponsor maintains ultimate responsibility for complying with its contracts
with CMS, which includes compliance with all Federal laws, regulations, and CMS instructions
(42 CFR § 423.505(i)). In addition, CMS’s Prescription Drug Benefit Manual, chapter 9,
section 50.2.6.3.1, recommends that the sponsor have systems capability to establish edits and
use edits to automatically deny claims or suspend payments on claims when appropriate.
UNALLOWABLE PARTIAL FILLS

Of 53 judgmentally selected PDE records, 16 records represented unallowable partial fills of
Schedule II drugs. (There were no refills.)

    •    For 13 PDE records, the drug was dispensed without a practitioner’s written prescription.

    •    For two PDE records, the drug was dispensed to a beneficiary who was neither a patient
         in a long-term-care facility nor a patient with a medical diagnosis documenting a terminal
         illness.

    •    For one PDE record, the drug was dispensed more than 60 days after the issue date of the
         prescription.

3
  Federal regulations (21 CFR § 1306.13(a)) also permit the partial filling of a prescription for a Schedule II drug if
the pharmacist is unable to supply the full quantity prescribed. The remaining portion of the prescription may be
filled within 72 hours of the first partial filling; however, if the remaining portion is not or cannot be filled within
the 72-hour period, the pharmacist may not dispense any further quantity without a new prescription.



                                                            5
INACCURATE PRESCRIPTION DRUG EVENT DATA

Of 64 judgmentally selected PDE records (which included the 53 records reviewed for refills and
partial fills), 29 records contained inaccurate data in certain fields. An additional two PDE
records were missing pharmacy documentation, which prevented us from determining the
accuracy of the data in the records.

Inaccurate Data

We considered data to be inaccurate when certain fields in the PDE records did not match the
supporting documentation that we reviewed at the pharmacies. The 29 PDE records contained
the following inaccurate data: 4

       •   The fill number did not match the number of fills associated with the prescription as
           shown in the documentation maintained at the pharmacy.

       •   The days supply of the drug did not match the number of days associated with the
           prescription as shown in the documentation maintained at the pharmacy.

       •   The prescriber identifier did not match the prescriber information on the prescription
           maintained at the pharmacy.

       •   The prescription origin code did not match the type of prescription that was presented at
           the pharmacy (i.e., written, telephone, electronic, or fax).

Missing Documentation

Of 64 judgmentally selected PDE records, 2 records were not supported by physician-signed
prescriptions. The pharmacy was not able to provide us with any supporting documentation,
such as physician-signed prescriptions, refill requests, or drug delivery receipts. Therefore, we
were not able to determine the accuracy of the data in the PDE records.

INADEQUATE CONTROLS

Although Argus’s claims processing system had some edits in place to identify discrepancies and
errors in pharmacy claims, Argus relies on the pharmacy to enter accurate data for an allowable
claim. The edits were not adequate to identify unallowable partial fills by pharmacies to prevent
submission of PDE records related to those prescriptions. In addition, based on our review of
information provided by the pharmacies, we determined that the edits were not adequate to
ensure the accuracy of certain fields in the PDE records.

HPS sends correspondence to its network pharmacies to remind them that they are contractually
obligated to follow Federal requirements. However, during the audit period, HPS did not
provide to pharmacies any guidance clarifying Federal requirements related to refills and partial

4
    All 29 PDE records had at least one of the types of inaccurate data shown.


                                                            6
fills of Schedule II drugs or adequate guidance regarding the submission of accurate claim
information for Schedule II drugs.

CONCLUSION

Schedule II drugs have a high potential for abuse. Therefore, having adequate controls to
prevent refills and unallowable partial fills, while ensuring that an adequate and uninterrupted
supply is available for legitimate medical needs, is a valuable program integrity safeguard. In
addition, having adequate controls to ensure the accuracy of data in submitted PDE records is
essential to program integrity. Without adequate controls, Part D sponsors cannot properly
oversee the dispensing and monitoring of Schedule II drugs.

RECOMMENDATIONS

We recommend that Humana:

   •   strengthen its controls to (1) prevent unallowable partial fills of Schedule II drugs and
       (2) ensure the accuracy of submitted PDE records and

   •   issue guidance to its pharmacies clarifying Federal requirements related to (1) refills and
       partial fills of Schedule II drugs and (2) submission of accurate claim information for
       Schedule II drugs.

AUDITEE COMMENTS

In written comments on our draft report, Humana concurred with part of our first
recommendation (that it strengthen its controls to prevent unallowable partial fills of Schedule II
drugs) and concurred with our second recommendation. Humana also provided information on
actions that it had taken or planned to take to address these recommendations. Although
Humana did not explicitly concur with part of our first recommendation (that it strengthen its
controls to ensure the accuracy of submitted PDE records), Humana stated that it would enhance
its pharmacy audit process to include a review of all PDE data elements that are based upon the
pharmacy’s submitted claim. Humana’s comments are included in their entirety as the
Appendix.




                                                 7
APPENDIX
                                                                                         Page 1 of4


                   APPENDIX: AUDITEE COMMENTS 





                                                               saoWest Main Street
                                                              louisville, KY 40202
                                                              Law Department
                                                              Humana.com




September 20, 2012



Ms. Lori A. Ahlstrand
Regional Inspector General for Audit Services
Department of Health and Humana Services
Office of Inspector General
Office of Audit Services, Region IX
90 - 7"' Street, Suite 3-650
San Francisco, CA 94103

Dear Ms. Ahlstrand:

RE: Report Number: A-09-12-02031

Enclosed Is Humana's response to the U.S. Department of Health and Human Services, OffICe of
Inspector General (OIG), draft report entitled Review 01 Medicare Part D Prescription Drug
Event Data far Schedule II Drugs at Humana Insurance Compony.

Please let me know If you have questions or require additional information.

Sincerely,




t$~ N~------·­
Brooks Newman
Director & Medicare Compliance Officer
Humana Inc.
                                                                                                                      Page 2 0[4




                                          Office of Inspector General
                            Review of Medicare Part 0 Prescription Drug Event Data 

                             For Schedule II Drugs at Humana Insurance Company 

                                         Response - September 20 2012


UNALLOWABLE PARTIAL FILLS

OIG Finding
Humana did not have adequate controls to prevent unallowable partial fills of Schedule II drugs as
required by Federal regulations.

Of 53 judgmentally selected POE records, 16 records represented unallowable partial fills of Schedule II
drugs. (There were no refills.)

    •	     For 13 PDE records, the drug was dispensed without a practitioner's written prescription.

    •	     For two POE records, the drug was dispensed to a beneficiary who was neither a patient in a
           long~term-care facility nor a patient with a medica! diagnosis documenting a terminal illness.


    •	     For one PDE record, the drug was dispensed more than 60 days after the issue date of the
           prescription.

OIG Recommendation

OIG recommends that Humana strengthen its controls to prevent unallowable partial fills of Schedule II
drugs.

Humana Response

           concurs        the D IG' s n:'cornrnen datio n and   the          i mDiE'm ,pniins a new   poi n t <;f ~

sa le edit to prevent unal l." w ab le
term care refil)
da ys after the                                                                          for den iaL

INACCURATE PRESCRIPTION DRUG EVENT DATA

OIG Finding
Humana did not have adequate controls to ensure the accuracy of certain fields in the PDE records
submitted for Schedule II drugs as required by Federal regulations.

Of 64 judgmentally selected PDE records (which included the 53 records reviewed for refills and partial
fills), 29 records contained inaccurate data in certain fields. An additional two POE records were missing
pharmacy documentation, which prevented us from determining the accuracy of the data in the
records.

Inaccurate Data



                                                           1
                                                                                                                                Page 3 0[4




We considered data to be inaccurate when certain fields in the POE records did not match the
supporting documentation that we reviewed at the pharmacies. The 29 PDE records contained the
following inaccurate data:

      • 	 The fill number did not match the number of fills associated with the prescription as shown in
          the documentation maintained at the pharmacy.

      • 	 The days supply of the drug did not match the number of days associated with the prescription
          as shown in the documentation maintained at the pharmacy.


      • 	 The prescriber identifier did not match the prescriber information on the prescription 

          maintained at the pharmacy. 



      • 	 The prescription origin code did not match the type of prescription that was presented at the
          pharmacy (Le., written, telephone, electronic, or fax).

Of 64 judgmentally selected POE records (which included the 53 records reviewed for refills and partial
fills), 29 records contained inaccurate data in certain fields.

Missing Documentation

Of 64 judgmentally selected POE records, 2 records were not supported by                 physician~signed

prescriptions. The pharmacy was not able to provide us with any supporting documentation, such as
physician-signed prescriptions, refill requests, or drug delivery receipts, Therefore, we were not able to
determine the accuracy of the data in the POE records.

OIG Recommendation

OIG recommends that Humana strengthen its controls to ensure the accuracy of submitted POE records

Hum an3 Response

The                                                         P((rprmr, " (NCPDP) ph,arrnillrv transact ion standn rrjs
                                                                  impiElmrrlt ing effective   dU,IUUK,IU;" 1

                 pos:.;ibl e dat a erro rs like many of those     lurrn,IU(IO                                    cases the
only le;:lSurra!rle,   .ava jl ab!c~

sub rnitted inforrnatiorl          review through a retrospective audit
                               review of mJny nharraarvsubmitted trans3ction                                             wi!!
                                             to         n::vie'N of                                                upon the
                                       Human;; wdl continue                                                    daims
                                                       process 	                                      revi l'wed




                                                              2
                                                                                                                 Page 4 0[4




INADEQUATE CONTROLS

Although Argus's claims processing system had some edits in place to identify discrepancies and errors
in pharmacy claims, Argus relies on the pharmacy to enter accurate data for an allowable claim. The
edits were not adequate to identify unallowable partial fills by pharmacies to prevent submission of POE
records related to those prescriptions. In addition, based on our review of information provided by the
pharmacies, we determined that the edits were not adequate to ensure the accuracy of certain fields in
the PDE records.

HPS sends correspondence to its network pharmacies to remind them that they are contractually
obligated to follow Federal requirements. However, during the audit period, HPS did not provide to
pharmacies any guidance clarifying Federal requirements related to refills and partial fills of Schedule II
drugs or adequate guidance regarding the submission of accurate claim information for Schedule II
drugs.

DIG Recommendation

The DIG recommends that Humana issue guidance to its pharmacies clarifying Federal requirements
related to (1) refills and partial fills of Schedule II drugs and (2) submission of accurate claim information
for Schedule II drugs.

Humana I\esponse

          concurs with the
                                                                                                        The
guid ance will
a nd co mpli a nce with fe deral a nd state
                                                                                   for Scheriu)e H drugs< 1n
                                  this guida nce   darificJtion      2013 Humana     Ft<"",,,,,·v F"V'.FUWU




                                                      3
